U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

January 10, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Nathan Van Buren v. United States of America,
S.Ct. No. 19-783

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on December
18, 2019, and placed on the docket on December 18, 2019. The government's response is due on
January 17, 2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including February 18, 2020, within which to file the government's response.
This extension is requested to complete preparation of the government's response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Noel J. Francisco
Solicitor General
cc: See Attached Service List

19-0783
VAN BUREN, NATHAN
USA

CLIFFORD W. BERLOW
JEN1'ER & BLOCK
353 NORTH CLARK STREET
CHICAGO, IL 60654-3456
312-840-7366
CBERLOW@JENNER.COM
ANDREW CROCKER
ELECTRONIC FRONTIER FOUNDATION
815 EDDY STREET
SAN FRANCISCO , CA 94109
415-436-9333
ANDREW@EFF.ORG
JEFFREY L. FISHER
STANFORD LAW SCHOOL SUPREME COURT
CLiNIC
559 NATHAN ABBOTT WAY
STANFORD, CA 94305
650-724-7081
JLFISHER@STANFORD.EDU
REBECCA SHEPARD
FEDERAL DEFENDER PROGRAM
101 MARIETTA STREET, NW
SUITE 1500
ATLANTA, GA 30303
404-688-7530
REBECCA_SHEPARD@FD.ORG

SARALIENE SMITH DURRETT
SARALIENE SMITH DURRETT, LLC
1800 PEACHTREE STREET
SUITE 300
ATLANTA, GA 30309

